 Department of Health and Human Services
         OFFICE OF
    INSPECTOR GENERAL




 STATE PROGRESS IN CARRYING OUT
THE NURSING HOME SURVEY REFORMS




                   MAY 1993
                                           -1
                                            _—
                     OFFICE OF INSPE~OR                  GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                         OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                         OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECHONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of Mark R. Yessian, Ph.D., Regional Inspector
General, and Martha B. Kvaal, Deputy Regional Inspector General, Boston Region, Office of
Evaluation and Inspections. Participating in this project were the following people:

Boston                                                              Headquarters
Russell W. Hereford, Ph.D., Project Leader                          Cathaleen A. Ahern
Joyce M. Greenleaf, Lead AnaZyst                                    Linda M. Moscoe
 Depatiment of Health and Human Setices
         OFFICE OF
    INSPECTOR GENERAL




 STATE PROGRESS IN CARRYING OUT
THE NURSING HOME SURVEY REFORMS




              my   1993   OEI-01-91415W
             EXECUTIVE                         SUMMARY
PURPOSE

To assess States’ progress in carrying out their Medicare/Medicaid nursing home
survey responsibilities under the 1987 Nursing Home Reform Law.

BACKGROUND

The 1987 nursing home reforms marked a major shift in how States monitor nursing
home quality. Prior to implementing those reforms in October 1990, State surveys of
homes receiving Medicare or Medicaid stressed reviewing processes and records to
document compliance with Federal standards. Now the process-focussed record
review has taken a back seat to observing how well the staff meet individual resident
needs and how well the home’s structure supports resident well-being. This shift
reflects the recommendations called for in the Institute of Medicine’s 1986 study,
Improving the Quality ofCare in Nuning Homes.

In this report, we examine the States’ progress in carrying out their survey
responsibilities. By survey responsibilities, we mean conducting the certification
surveys, responding to complaints, and carrying out the follow-up activities these two
entail, such as extended surveys. We sought information from the top 20 States
ranked by number of nursing home beds and draw on interviews with 18 State survey
agency officials and data from 19 of those top 20 States. The 19 States contain 73
percent of the nursing home beds in the country; the 18, 70 percent. We interviewed
nursing home surveyors and supefisors in two States. We also draw on information
from the Health Care Financing Administration’s (HCFA) central and regional office
staff and discussions with national groups representing nursing homes and residents.

FINDINGS

The 19 SkZes are mukikgpmgress h canyikg out t.heii new numikg home swvey
responsibilitks cakki fw in the 1987 N&g Home Rejonn Law.

  ��
       Resources for nursing home survey and certification increased from FY 1990 to
       1992. The budgets increased in each of the 19 States; staff increased in 16 of
       the 19 States and decreased in 3. The average budget increase was 59 percent,
       and the average staff increase, 37 percent.

  ��
       State survey agencies are overseeing nursing homes with the new, outcome-
       focussed survey process. They are also taking steps to implement a new, more
       flexible survey cycle, which allows them to concentrate on problem homes.

  ��
       Seventeen of the 19 States are conducting the standard certification surveys on
       time.



                                           i
Despite their pmgrq the 19 States are facing hpkmmta     tion problem   that couki
jeoe    “ theintentofthe nlushghome refoms.

  �
       State survey staff are experiencing problems adjusting to the new outcome-
       focussed survey. While sumeyor training has helped, both HCFA regional staff
       and State officials expressed concerns about that training.

   �
       State survey agencies contend with staff turnover and recruitment problems that
       are compounded by their own State fiscal pressures. At the time they
       responded to our survey, the 19 States reported over 700 vacancies among
       about 3,800 survey and support staff in FY 1992.

   �
       State survey agencies’ relationships with nursing homes are increasingly
       contentious as the reforms provide new incentives for nursing homes to refute
       deficiencies. This can result in surveyors citing fewer or less serious
       deficiencies.

   �
       The State survey and HCFA regional officials expressed concerns over long
       waits for HCFA regulations and, to a lesser extent, over unclear and
       inconsistent guidance from HCFA. This can result in confusion and
       inconsistent implementation.

VhherabiMies in both musing honws and other State-surveyed health fadiies     could be
kxming as States fixus on the impkmen@tion chalknges of the refoms.

   b
       Complaints    about nursing homes increased for 15 and decreased for 3 of the 18
       responding   States from FY 1990 to 1992. The average increase was 74 percent.
       Some State    survey officials are concerned about their ability to respond to
       complaints   quickly and effectively.

   �
       Some State survey officials report curtailing, delaying, and/or omitting surveys
       for facilities such as home health agencies, hospices, and hospitals.

CONCLUSION

Nursing home and resident advocates alike welcomed the nursing home reforms of
1987 as a positive step in improving the lives of nursing home residents. And the
intent of the reforms is beginning to be realized. The HCFA has an important role to
play in fostering continued progress in the implementation of these reforms. Toward
this end, it has opportunities in three areas. First, it could invigorate its surveyor
training program to enhance surveyor skills. Second, it could use its annual evaluation
of each State agency’s contract compliance to identify areas of weak performance, and
then take action to prevent problems before they present any danger to users of State-
surveyed health facilities. Finally, HCFA has opportunities to improve its guidance to
States by quickly issuing final regulations and ensuring the State Operations Manual
reflects current HCFA policy.


                                            ii
                         TABLE                    OF CONTENTS

EXECUTIW           SUMMARY

mODU~ON                    . . . . . . . . . . . . . . . . . . . . ..=.   ~. . . . . ..””     ”ooococs”oooooo         1

mugs             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. O. . . ..””     ”OOOOOO0000000 3
                                                                                                       �




    �
        Implementation      Progress       ......................................... 3

    �
        Implementation      Problems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

    b
        Looming Vulnerabilities          .......................................... 8

mN~USION               . . . . . . . . . . . . . . . ...=     . . ..=.    .=~. .*” O*OOOOOOOOOOO”
                                                                                              O1OO1O

APPENDICES

k       Methodology       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..””    ”==soooooooooo      D A-1

B:Notes         . . . . . . . . . . . . . . . . . .=.......          . . . ..””””=•        OOOOOS=SOOOOOOO      �
                                                                                                                    B-1




                                                               ...
                                                               111
                         INTRODUCTION

PURPOSE

To assess States’ progress in carrying out their Medicare/Medicaid nursing home
survey responsibilities under the 1987 Nursing Home Reform Law.

BACKGROUND

The 1987 nursing home reformsl marked a major shift in how States monitor nursing
home quality. Prior to implementing those reforms in October 1990, State surveys of
homes receiving Medicare or Medicaid funds stressed reviewing processes and records
to document compliance with Federal standards. Now the process-focussed record
review has taken a back seat to outcomes, observing how well the staff meet individual
resident needs and how well the home’s structure supports resident well-being. This
shift reflects the recommendations called for in the Institute of Medicine’s (IOM) 1986
study, Improving the Quality of Care in Nuning Homes.

The 1987 reforms addressed the problems the IOM identified with the previous
nursing home inspection process. That process included an annual survey, an annual
inspection of the care provided to each Medicaid recipient (both utilization review and
quality of care), and the ad hoc investigation of complaints. Among the problems
IOM identified with that process were its predictability, insensitivity to resident needs,
focus on paper compliance, and the ease with which substandard homes could avoid
termination by maintaining compliance only long enough to become recertified.

The reforms addressed the surveys’ predictability by eliminating nursing homes’ time-
limited agreements (TLAs)2, so that the survey schedule could be more flexible. Now
surveys must occur at least every 15 months, with a statewide average of 12 months.
The reforms also called for surveyors to focus on outcomes, by determining how well
nursing home residents are achieving their “highest practicable physical, mental and
psychosocial well-being.”3 That new focus addresses IOM’S concerns not only about
insensitivity to resident needs but also paper compliance because surveyors are now
required to observe residents, not simply ensure the proper documentation of their
records. And the reforms called for a range of intermediate sanctions to deter
violations and support sustained compliance.

About 90 percent of all nursing homes participate in Medicare and Medicaid.4 To
participate in those programs, the homes must meet new Federal standards called for
in the reforms. The Health Care Financing Administration (HCFA) contracts with
State governments (i.e., survey agencies) to inspect the quality of care each home
provides and ensure those standards are met. These State sumey agencies not only
conduct certification surveys but also investigate complaints and license nursing
homes.5 And they oversee other health care facilities, such as laboratories, hospices,
home health agencies, and hospitals.


                                             1
The HCFA details the procedures for each of the seven standard survey tasks in its
State Operations Manual. The tasks are: (l)off-site preparation, (2) entrance
conference and on-site preparation, (3) orientation tour, (4) resident sampling,
(5) information gathering, (6) information analysis and decision making, and (7) exit
conference.

If the survey team finds the home meets the standards, then the State certifies that
home to participate in Medicare and/or Medicaid. If certain standards are not met,
the home can still be certified but has to correct its deficiencies through a written plan
of correction. Based on deficiencies, the teams can also conduct extended surveys to
focus on the home’s underlying policies and procedures that allow the deficiencies to
exist.h

The survey agencies must take more drastic actions if deficiencies threaten the health
or safety of residents. The 1987 reforms require a range of enforcement remedies
including payment denial, civil monetary penalties, temporary management, and
termination from Medicare and Medicaid. They require criteria for enforcement that
specify how and when the remedies be applied based on a deficiency’s scope and
severity, speci& the amount of fines, minimize the time between the deficiency and
remedy, and provide for more severe remedies for repeat deficiencies.

Thus, these nursing home reforms mandated major changes in how States will ensure
that the nursing homes where thousands of Americans live meet Federal standards. In
addition, the Clinical Laboratory Improvement Act (CLIA) of 19907 also placed new
burdens on State survey agencies. Given these changes plus the fiscal stress many
States are operating under, State survey agencies are facing many challenges in
implementing the reforms.

More than two years have passed since the implementation of the reforms. The
reduced use of physical and chemical restraints on nursing home residents is often
cited as one positive and tangible outcome of the reforms to date. In this report, we
examine the State survey agencies’ progress in carrying out the reforms in their survey
responsibilities. By survey responsibilities, we mean conducting the certification
surveys, responding to complaints, and carrying out the follow-up activities these two
entail, such as extended surveys. We sought information from the top 20 States
ranked by number of nursing home beds and draw on interviews with 18 State survey
agency officials and data from 19 of those top 20 States. The 19 States contain 73
percent of the nursing home beds in the country, the 18, 70 percent. We interviewed
nursing home sumeyors and supervisors in two States. We also draw on information
from the Health Care Financing Administration’s central and regional office staff and
discussions with national groups representing nursing homes and residents. (Refer to
appendix A for more detail on our methodology.)

We conducted our review in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.



                                             2
                                FINDINGS

Tke 19 Staiks are makhgpmgress in c*g       out theih new raunhg   how   -q
ruponsibiliiies called for h the 1987 N&g   Home Refimn LAW.

  �
       Resources for nursing home survey and certification increased from FY 1990 to
       1992. The budgets increased in each of the 19 States; staff increased in 16 of
       the 19 States and staff decreased in 3. The average budget increase was 59
       percent, and the average staff increase, 37 percent.

  �
       State survey agencies are overseeing nursing homes with the new, outcome-
       focussed survey process. They are also taking steps to implement a new, more
       flexible survey cycle, which allows them to concentrate on problem homes.

  �
       Seventeen of the 19 States have conducted the standard certification surveys on
       time.

The Medicare and Medicaid nursing home survey and certification budgets for the 19
States and increased from $96,737,360 in FY 1990 to $152,823,544 in FY 1992.8 The
increases ranged from a low of 10 percent to a high of 128 percent. The median was
55 percent. In most States, both the Medicare and Medicaid budgets increased: in 16
States Medicare budgets increased 62 percent on average, and in 17 States Medicaid
budgets increased 99 percent on average. 9 The overall nursing home survey and
certification budgets increased even in those States that experienced a decrease in
either Medicare (three States) or Medicaid (two States) from FY 1990 to 1992.

The 19 States that responded to our survey reported having 1,923 full-time equivalent
(FTE) surveyors conducting nursing home surveys in FY 1990, most of them registered
nurses. By FY 1992, that number increased 35 percent to 2,587, still mostly registered
nurses. Likewise, the number of support staff, such as supervisors and clerks,
increased 23 percent between FY 1990 and 1992. Overall, the staff (survey and
support staff) increases ranged from a low of 2 percent to a high of 128 percent for
the 16 States that had an increase; the median was 31 percent.

These increases reflect the survey agencies’ increased workload under the nursing
home reforms. The majority of the State survey officials responding to our inquiry
reported that each of survey tasks we asked about took longer than before the
reforms; no one said they took less. The tasks we asked about are: conducting the
surveys on-site, preparing the survey paperwork before the survey, preparing the survey
paperwork after the survey, conducting enforcement activities, and responding to
complaints. Extended and partial extended surveys, begun since the reforms, also add
to the workload. Prior to implementing them, HCFA estimated that the reforms
would increase survey workload by a minimum of 40 percent for a standard survey to
as much as 64 percent when an extended survey is needed.*O



                                            3
In our discussions with them, the State survey officials indicated they were
implementing the new flexible survey cycle as called for in the reforms.ll Some
reported they will rely on a home’s compliance history, complaints, and/or turnover
among key staff to select homes for more frequent surveys. Some also reported
expecting this change to reduce some of the paperwork burden of the survey process.
Before States began implementing this new survey cycle, HCFA required them to
complete the standard recertification surveys before the 12-month agreements expired.
With few exceptions, the States reported meeting those deadlines.12 And HCFA’S
evaluation of the States’ timely conduct of the surveys also shows that, for the most
part, States were up-to-date in completing those surveys.13

Despite thdpqgr~        the 19 StaUX are facing impkmen@tim   pmbkms that COW
jeopadzze9 theiilk?ntofth    e?umhghomer~m.

   �	
        State sumey staff are experiencing problems adjusting to the new outcome-
        focussed survey. While surveyor training has helped, both HCFA regional staff
        and State officials expressed concerns about that training.

The new survey process represents a major culture change for many surveyors.14
They now look to see if the care provided by nursing homes allows the residents to
achieve their “highest practicable level of physical, mental, and psychosocial well-
being.” This attention to resident outcomes is a long way from the prior focus on a
home’s capacity to meet Federal standards. Indeed, the focus on outcomes calls for
developing new investigatory skills and enhancing skills many surveyors already have,
such as interviewing and observation.

A recent study involved the review of a random sample of 359 deficiency statements
from 21 States.15 Deficiency statements are the paperwork, using specific HCFA
forms, that surveyors prepare to document deficiencies they find during the survey.
That study raises questions about the extent to which surveyors writing those
statements have adjusted to the new outcome focus: 45 percent of the deficiency
statements failed to consider either actual or potential negative outcomes. When
those deficiencies related more to a home’s structure than to a resident’s outcome
were excluded, 43 percent still failed to consider actual or potential outcome.lG

Teaching hundreds of surveyors not only to shift their focus to outcomes and learn
new skills but also become familiar with a barrage of new survey forms and processes
is a daunting task. The HCFA undertook this task through training manuals and
courses in Baltimore and the regions. In some respects, this training has been helpful
and well-regarded; however, many with whom we spoke expressed some serious
concerns about the content and availability of the training.

Most of the State survey officials rated HCFA’S training highly: 14 of the 18 who
answered the question said the training was moderately or significantly helpful. They
cited a range of activities for which the surveyors had received training, from
conducting the standard and extended surveys, to completing the forms and using


                                            4
computers. Many praised the Principles of Documentation manual and course, which
provide guidance on the proper documentation for deficiencies. That course
addresses the types of concerns raised in the above-noted study on deficiency
statements.

Officials from HCFA regional offices, State survey agencies, and national groups
representing nursing homes and residents expressed concerns about the content of the
training. Both HCFA and State officials mentioned the lack of training in
investigatory skills; one also mentioned the lack of training aimed at the needs of
more experienced surveyors who account for as much as 75 percent of all
surveyors.*7 Some questioned whether the focus of the training adequately reflected
the focus of the reforms. For example, the basic surveyor training course18 includes
a mock hearing, which few surveyors will likely ever attend. Some also expressed
concerns about how most of the training was provided: structured lectures to large
groups rather than a more interactive approach with smaller groups. Typical of the
concerns of the national groups was this comment from one such official who, in
questioning how well surveyors are coping with the new outcome focus, also
questioned whether the training has taught “the spirit of OB~      not just the letter.”

We also heard concerns about the amount of training available for surveyors. For
example, many State officials noted inadequate space in the training courses, and
HCFA regional officials echoed this concern. 19 In fact, as of October 1, 1990, when
the new survey system was to begin, 924 State and Federal surveyors had attended
HCFA’S 3-day course on the new survey process. At best, that represented about one-
fifth of all State surveyors. n Since then, of course, more sumeyors have attended
that and other courses, such as the basic health facility course, designed for new
surveyors. According to HCFA’S “train the trainer” approach, those who attend each
course are expected to share their knowledge with those unable to attend. But based
on HCFA’S own data, as many as one-third of State surveyors had not been trained by
the end of FY 1992.21

State survey agencies, of course, also have orientation and training programs for their
surveyors. They often assign new surveyors to shadow more experienced surveyors
until they know the ropes. But HCFA officials and others we spoke with expressed
concerns that, because the more experienced surveyors may be the ones having the
hardest time adjusting to the new focus on outcomes, this approach to training maybe
counterproductive.

To the extent that the new outcome focus of the survey process is not being
implemented, the intent of the reforms is left unrealized. For example, the survey in
one home we know about illustrates this threat. Surveyors cited this home for
deficiencies that posed an immediate and serious threat to the health and safety of its
residents. The survey agency gave the home 23 days to correct its problems or be
terminated from the Medicare and Medicaid programs. At the end of the 23 days, the
home had not only failed to correct its deficiencies, but the State survey agency had
also determined that the conditions in the home constituted an emergency that directly


                                            5
jeopardized many residents. The State survey agency therefore issued an emergency
order for the relocation of these residents. When challenged by the home’s attorney,
however, the State survey agency decided the residents could remain if the attending
physician of each resident or the home’s medical director simply documented that
each resident would not be at jeopardy in the home. And the physicians did just that.
Thus the survey agency essentially erased the emergency relocation order based on
documentation rather than actual improvement or correction of deficiencies.

  �
       State sumey agencies contend with staff turnover and recruitment problems that
       are compounded by their own State fiscal pressures. At the time they
       responded to our survey, the 19 States reported over 700 vacancies among
       about 3,800 survey and support staff in FY 1992.

All but one of the State survey officials who responded to our sumey said they had
turnover and/or recruitment problems. Several mentioned chronic vacancy rates of 15
percent and 1 as high as 27 percent. Each of the 19 States for which we have data
reported vacancies among their nurse surveyors--often long-term vacancies. In one
State, only two of seven survey teams were fully staffed; in another, survey teams in
one urban area have never been fully staffed. And in another large State, some of the
district offices lack experienced surveyors.

In explaining the problems, many survey agency officials cited the onerous travel
required of the surveyors and lack of competitive salaries, especially for registered
nurse surveyors and registered dietitians. 22 They also cited State salary and hiring
freezes, early retirement programs, and cumbersome hiring procedures as exacerbating
these problems.

These problems can have serious implications for the State survey agencies. Twelve of
the 18 survey agencies that responded to our survey reported having inadequate
capacity to conduct either their standard surveys, extended surveys, and/or complaint
investigations. Officials from 11 States reported cutting back on survey activities in
some ways, most often by not conducting all the follow-up required to monitor a
home’s progress in correcting deficiencies. The surveyors we spoke with in two States
reported needing more time for some of the survey tasks, particularly observing
residents and reviewing medical records for the quality of care assessment. And in
another State, the survey agency officials have cut HCFA’S required survey samples in
half because of staffing shortages.

   b
       State survey agencies’ relationships with nursing homes are increasingly
       contentious as the reforms provide new incentives for nursing homes to refute
       deficiencies. This can result in surveyors citing fewer or less serious
       deficiencies.

We heard about the increasingly contentious relationship from both HCFA and State
officials, as well as officials from groups representing residents and nursing homes.
For example, they reported a trend of more and more homes refuting deficiencies and


                                           6
appealing sanctions--although neither HCFA nor any of the nursing home or resident
associations we asked track how many deficiencies are refuted or how many sanctions
are appealed.

That trend may be in response, at least in part, to two stimuli: increasing numbers of
malpractice suits against nursing homes~ and HCFA’S proposed enforcement
regulations. Survey reports and deficiencies can become evidence in malpractice suits,
and recent cases have resulted in significant awards against homes.x And the
proposed enforcement regulations call for sanctions when homes are found to have
provided substandard care n for three consecutive sumeys. This means the stakes are
higher for homes having even one deficiency in any one survey.

We also heard about a related trend that speaks to the increasingly contentious
relationship: homes submitting plans of correction that more and more often contain
a disclaimer stating that preparing and executing such a plan does not indicate the
home agrees to the facts alleged in the deficiency. For example, the disclaimer in one
plan of correction we reviewed read as follows: “Preparation and/or execution of this
plan of correction does not constitute admission or agreement by the provider of the
truth of the facts alleged or conclusions set forth in the statement of deficiencies. The
plan of correction is prepared and/or executed solely because it is required by the
provisions of federal and state law.” The homes may view such a disclaimer as
valuable if they were to appeal a sanction or if they were to defend themselves against
a malpractice suit.

of course, that the relationship can be contentious is not always problematic, nor is it
a surprise--after all, the relationship between the home and the surveyor is one of the
regulated and the regulator. Indeed, to the extent that a contentious relationship
causes the surveyors to improve by being more careful and precise in documenting
deficiencies, it is welcome. But the trends we describe also have other implications
that can threaten the intent of the reforms. For example, surveyors, seeking to avoid
a lengthy battle or appeals process, may cite fewer or less serious deficiencies. or
they may become involved in long appeals or malpractice cases, meaning they have
less time for their routine survey, follow-up, and enforcement activities.

   �
       The State survey and HCFA regional officials expressed concerns over long
       waits for HCFA regulations and, to a lesser extent, over unclear and
       inconsistent guidance from HCFA. This can result in confusion and
       inconsistent implementation.

The nursing home reform legislation provided statutory deadlines for implementing
major parts of the reforms. The HCFA failed to issue proposed or final regulations
timely for both of the two major sets of regulations upon which State survey agencies
rely. One is related to survey and certification, which had a statutory deadline of
January 1990; the other, enforcement, had a statutory deadline of October 1988. The
proposed regulations for both were published August 28, 1992; final regulations have
yet to be issued.


                                            7
Both State and HCFA regional officials with whom we spoke called the delays
unacceptable and expressed deep frustration with them. They are concerned that the
lack of final regulations leaves inadequate guidance for the States and invites provider
challenges, such as refuting deficiencies or appealing sanctions. With such challenges,
HCFA faces the threat that proposed regulations will be interpreted through the
courts.

Both State officials and HCFA regional staff with whom we spoke also cited
inconsistent and unclear guidance from HCFA as presenting implementation problems
for the States. Confusion over what constitutes HCFA policy is part of the problem.
For example, HCFA regional offices routinely submit questions to the central office,
which responds in a memorandum. Each regional office receives a copy. Whether
these memoranda apply only to the specific question posed or constitute policy is
interpreted differently among the HCFA regional offices. And since the regional
offices interpret these memoranda differently, guidance to the States may also differ.

In another example, reported in an industry newsletter   and referred to by several
people with whom we spoke, a HCFA regional office responded in September 1992 to
a consumer group’s question about what nursing homes are allowed to ask of
prospective residents’ finances. Shortly thereafter, HCFA central office issued another
response. With HCFA and consumers sparring not only over the consistency but also
the correctness of the two HCFA responses, State survey agencies are left unsure
about how to enforce the policy in question.

Virilities   in both musing homes and other Statk-surveyed health fadities     could be
kmning as Saks f-on      the impkmentation challenges of the refioms.

   �	
        Complaints    about nursing homes increased for 15 and decreased for 3 of the 18
        responding   States from FY 1990 to 1992. The average increase was 74 percent.
        Some State    survey officials are concerned about their ability to respond to
        complaints   quickly and effectively.

   b
        Some State survey officials report curtailing, delaying, and/or omitting surveys
        for facilities such as home health agencies, hospices, and hospitals.

Officials from 11 States expressed concerns about their ongoing ability to respond to

complaints--more so than other areas of their survey responsibilities that we asked

about. The dramatic increase in complaints ranged from 4 percent to as high as 438

percent in those 15 States. The median was 23 percent. The increase, coupled with

the sumeyors’ limited investigatory skills, have taxed States’ ability to respond.

Officials for those 11 States reported having inadequate capacity to investigate those

complaints appropriately. Even among the States that reported having adequate

capacity to investigate their complaints, some officials mentioned cutting back in other

areas, such as follow-up visits to veri& plans of correction, in order to investigate

complaints.




                                             8
Investigating complaints requires many skills and even contacts within the nursing
home’s community, particularly complaints alleging resident abuse or misappropriation
of resident property. And while no State official reported having studied their
increased complaints, 7 of the 17 State officials who responded to our question
thought that the nature of the complaints might be changing. They mentioned more
complaints of resident abuse, neglect, and misappropriation of resident property most
often. In those types of cases, the complainant may wish to press criminal charges, so
that preserving evidence, identif@g witnesses, and contacting proper authorities (such
as the police and/or State Medicaid Fraud Control Units) are vital to the proper
investigation of the complaint.

Areas other than complaints may also become vulnerable as States continue to focus
on the nursing home reforms. Indeed, officials from 10 of the 19 States we heard
from reported cutting back their State licensure or survey activities for facilities other
than nursing homes. For example, one State official reported deferring hospice and
home health agency surveys in order to devote more staff to nursing home surveys.
Officials from HCFA regional offices also expressed concern about the lack of
attention to these other facilities. While recognizing nursing homes as the largest
portion of survey agencies’ workload, they also warned that other areas not be
neglected.

In 13 of the 19 responding States, the same surveyors that are responsible for nursing
home surveys also conduct surveys of other health facilities, such as hospitals, home
health agencies, hospices, and end-stage renal disease (ESRD) facilities, among others.
Each of these surveys requires some specialized knowledge. One State official
elaborated on these concerns about surveyors’ abilities to keep up with each field and
noted particularly infection control techniques for facilities relying on high or quickly
changing technologies, such as ESRD and hospitals.




                                              9
                             CONCLUSION

Nursing home and resident advocates alike welcomed the nursing home reforms of
1987 as a positive step toward improving the lives of nursing home residents. And the
intent of those reforms is beginning to be realized. In this report, we addressed both
the progress State survey agencies have made in implementing the reforms and the
implementation problems they face. We also reported on some dangers: survey
agencies’ continued focus on nursing home reforms could be at the expense of both
adequately responding to complaints and attending to other State-surveyed health
facilities.

Clearly, State sumey agencies operate in a complex environment of myriad State fiscal
pressures and responsibilities, Federal oversight, and an array of State and Federal
regulations. And while implementation of the nursing home reforms is underway,
State survey agencies also face the implementation of the Clinical Laboratory
Improvement Act of 1988, which calls for unannounced inspections of all laboratories
testing human specimens--an enormous undertaking.

The HCFA’S role is crucial in helping the States maintain progress in realizing the
nursing home reforms. The HCFA has opportunities to foster the momentum through
its surveyor training initiatives, its evaluation of State survey agencies, and its guidance
to the States. Renewed efforts to be responsive to State and HCFA regional office
concerns in each of the these areas could enhance the partnership between HCFA
and the States, and promote further progress in realizing the full intent of the nursing
home reforms.

  �
       Surveyor Training

The HCFA has an opportunity to invigorate its surveyor training program and ensure
its focus reflects the goals of the reforms and the needs of the surveyors. The HCFA
has many resources from which to draw to do that. For example, HCFA recently
completed a provider survey that offered insights on the providers’ views of the survey
process and how well surveyors convey their findings. Likewise, HCFA will soon have
a report for which it contracted on surveyor decision-making and consistency as well as
quality-of-life and quality-of-care measurement.27 The HCFA will also have the
results of its Surveyor Minimum Qualifications Test (SMQT).% Each of these
resources, plus this report, should provide HCFA with ample information to draw on
in assessing ways to improve its training programs, for example, to enhance surveyor
skills for assessing resident outcome and address other training needs that are
identified.

   �
       Evaluation

The HCFA also has an opportunity to address whether it is getting enough meaningful
information from its State Agency Evaluation Program (SAEP). Its existing SAEP


                                             10
workgroup could consider new areas for data collection, such as the number and types
of deficiencies refuted by providers and the number and outcome of appealed
sanctions. Workgroup members could assess the extent to which SAEP data could be
used to monitor not only each States’ contract compliance, but also patterns of weak
performance. They could also consider a shift in the SAEP’S focus from process to
outcomes--thereby reflecting the shift in the survey’s focus. Such careful data
collection and monitoring through the SAEP could enable HCFA to take action and
to avert potential problems before they present any danger to nursing home residents,
hospital patients, and others relying on State-surveyed health facilities for services.

  �
      Improved Guidance

Finally, HCFA has opportunities to improve its guidance to the States. It could move
quickly to issue final regulations. It could ensure the State Operations Manual that
survey agencies rely upon is up-to-date and consistent with proposed and/or final
regulations. It could also ensure that other sources of policy information, such as
memoranda, are clearly labeled as such and incorporated into that manual as
appropriate. This could reduce the confusion we heard about from both State survey
agency officials and HCFA regional office staff.




                                           11
                            APPENDIX                   A

                                      Methodology

Our methodology for this study included collecting information from and about the top
20 States ranked by the number of nursing home beds. These 20 States account for
about 75 percent of all the nursing home beds in the country. Beginning with those
having the most nursing home beds, they are: California, Texas, New York, Illinois,
Ohio, Pennsylvania, Florida, Indiana, Missouri, Michigan, Wisconsin, Massachusetts,
Minnesota, New Jersey, Louisiana, Georgia, Iowa, Tennessee, Oklahoma, and Kansas.

We received budget and evaluation data from the HCFA regional and central offices
for the 20 States for FYs 1990, 1991, and 1992. The evaluation data is based on
HCFA’S annual, formal review of the State agencies’ performance. We also wrote to
the survey directors in each State and requested both data on their nursing home
suxvey staff and activities and answers to open-ended questions on the implementation
of the reforms. We received data from 19 of the 20 States (all except Minnesota) and
responses to our open-ended questions from 18 of the 20 States (all except Minnesota
and Louisiana). The 19 States contain 73 percent of the nursing home beds in the
country; the 18, 70 percent. We also held telephone interviews with a total of nine
surveyors and surveyor supervisors in two States.

We talked to HCFA regional office staff in each of the eight regions responsible for
States in our sample. We asked them how well they thought the reforms were being
implemented and what constraints they thought the States face in implementing the
reforms, among other things.

We also talked to several officials of national groups representing nursing homes and
nursing home residents and researchers and consultants involved in this field. These
intemiews included officials from the American Health Care Association, American
Association of Homes for the Aged, National Citizens’ Coalition for Nursing Home
Reform, National Association of State Long Term Care Ombudsmen, Abt Associates,
and a former staff member of the Institute of Medicine who was involved in
researching and writing the 1986 report, Improving the Quality of Care in Nursing
Homes.

Finally, we reviewed relevant materials such as legislation, articles, and the above-
noted Institute of Medicine book.




                                           A -1
                             APPENDIX                   B

                                          Notes



1. The reforms are contained in the Omnibus Budget Reconciliation       Act of 1987
(Public Law 100-203), which was enacted on December 22, 1987.

2. The agreement requiring that nursing homes be sumeyed and recertified every
12 months.

3. 47 FR 5365.

4. National Citizens’ Coalition for Nursing Home Reform, Nursing Home Reform Law:
Z%eBasics (Washington, DC) 1991.

5. All nursing homes are subject to State licensure, even if they do not receive funds
from Medicare and Medicaid.

6. Surveyors must conduct extended surveys if they find any Level A deficiency in the
following requirements: Resident Rights, Resident Behavior and Facility Practices,
Quality of Life, or Quality of Care.

7. The CLIA (Public Law 100-578) set standards for improving the quality of testing
in all clinical laboratories that test human specimens. It calls for State survey agencies
to assess compliance with the new standards through unannounced laboratory
inspections, among other things.

8. These budget data from HCFA reflect Medicare budgets requested and approved
by HCFA. They also include Intermediate Care Facilities and Medicaid nursing
homes because HCFA cannot separate them from other nursing home survey and
certification data. The national nursing home survey and certification budgets
(Medicare and Medicaid) increased from $120.2 million in FY 1990 to $213.3 million
in FY 1992.

9. Medicare increases ranged from a low of 9 percent to a high of 276 percent with a
median of 79 percent. Medicaid increases ranged from a low of 7 percent to a high of
135 percent with a median of 49 percent.

10. Based on the HCFA survey time parameters used for Medicare surveys in nursing
homes before and after OBRA 1987. These show that a survey before OBRA would
take about 148 hours on average, nationally, and 207 after OBRA. An extended
survey would require an additional 36 hours.




                                           B-1
11. Our contact with State survey agencies began shortly after HCFA issued its
implementation instruction for eliminating time-limited agreements. The HCFA issued
that instruction on September 15, 1992. We mailed our surveys to the States on
September 24, 1992 and began calling them shortly thereafter.

12. The major exceptions are Michigan and California. The Michigan survey agency
recently caught up on a large backlog of nursing home surveys. In California, the
survey agency refused to implement the reforms because it believed its State law
exceeded the new Federal standards. On October 1, 1990, the National Senior
Citizens Law Center took California to court to force implementation.   Meanwhile,
over one hundred Federal surveyors flew to California to enforce the law. In March
of 1991, California, HCF~ and the administration negotiated an agreement allowing
the State to make changes in the surveyor instructions, and California resumed its
survey activities.

13. According to the State Agency Evaluation Program Reports we reviewed for
FY 1992, HCFA required 3 of the 19 States in our sample to submit corrective action
plans based on poor performance in completing the surveys on time. In addition to
Michigan and California, HCFA also identified Massachusetts. Massachusetts officials
we spoke with indicated no backlog, nor did data from that State which we reviewed.
The HCFA’S concerns in its review of the State’s performance appear to relate more
to paperwork problems.

14. For a discussion of social systems’ active resistance to change, referred to as
“dynamic conservatism,” see Donald A. Schon, Bevond the Stable State, New York:
W. W. Norton & Company, Inc. 1971.

15. The sample included statements from the period April 1, 1991 to March 30, 1992.
Jean Johnson-Pawlson, Study of SurveyorPerformance, The George Washington
University, October 26, 1992. This study was funded by the American Health Care
Association.

16. Letter from the American Health Care Association to HCF~        April 28, 1993.

17. Personal communication with a representative of Abt Associates. Under contract
with HCF~ Abt is undertaking an evaluation of the surveyors’ decision-making. One
part of that evaluation involved a mail survey to 750 State surveyors. Preliminary
results of that mailing indicate that 75 percent of the surveyors were surveying nursing
homes prior to October 1990, when the new survey process was implemented.

18. The HCFA requires all surveyors to attend its basic health facility training course
within their first year of employment to participate fully as a survey team member.

19. Many State officials said they would like to see more training opportunities in the
regions rather than Baltimore, and the HCFA regional staff also noted wanting to
offer more. The HCFA regional officials noted that their training budgets for such
projects were limited, especially because funds for training compete with funds


                                          B-2
required for the Federal sumeyors to conduct their monitoring sumeys at the
mandated 5 percent of the homes in each State.

20. Based on HCFA’S estimated 4,111 State nursing home surveyors in FY 1990 and
its training records indicating that 924 State and Federal sumeyors attended that
course by October 1, 1990. These data include all States.

21. Based on HCFA’S estimated numbers of State nursing home surveyors (5,255) in
FY 1992 and actual number of State and Federal surveyors (3,568) completing the
long-term care specialty training, the basic training, or a course on resident assessment
from FY 1990 through-FY 1992 as tracked by the-training branch in HCFA. These
data include all States.

22. We asked some State officials about recent pay raises to address recruitment and
retention problems. Eleven States official reported raises, mostly for the registered
nurses and often based on union negotiations, although the raises were generally small
cost-of-living increases.

23. Malcolm J. Harkins and Bradley L. Kelly. 7he Impact of iVuning Home Survey
Repotis in Tort and Criminal Cases. Washington, DC: Cassons and Harkins.
April 1992.

24. For example, a jury in Texas awarded $39.4 million to the family of a woman
strangled in a restraint and a jury in Alabama awarded $2 million in punitive damages
for a home’s alleged mismanagement of a resident’s bedsores. See David T. Marks.
Nuning Home Litigation Exchange Repoti. Houston, TX: Association of Trial Lawyers
of America. July 28, 1992, and l?ze Impact of Nursing Home Survey Reports in Tort and
Criminal Cases, op. cit.

25. Substandard    care means care furnished in a facility that has one or more
deficiencies in any area with a severity level of 3 (potential physical harm) or 4 (actual
physical harm), regardless of scope; or a level 2 (negative outcome or resident rights
violation, or in the survey team’s judgement, the ability of the individual to achieve the
highest practicable physical, mental or psychosocial well-being has been compromised,
or both) in severity with a level 3 (pattern) or 4 (widespread) in scope in the quality of
care requirements for long term care facilities.

26. See Long Term Care Management. HCFA BansHomes From Asking Financial
Questions. October 15, 1993:3. and Consumen, HCFA Dkpute LTC Financial
Screening Ruling. March 10, 1993:1.

27. The HCFA’S contract is with Abt Associates.

28. The reforms mandated a surveyor training and testing program, and the SMQT is
HCFA’S response to that mandate. It is a standardized test that all sumeyors will have
to pass to participate fully as team members. Those who fail can participate as
trainees, will receive feedback on their test results, and must undertake remedial


                                           B-3
training. The pretest was held December 7, 1992, and HCFA has modified the test
and its administration of the test based on those results. The operational test will be
held in the late summer, 1993.




                                           B-4
